No.

20-8003
3fa tfje

Supreme Court of tfje fHntteb Stated
!

iz

as%ig

CYNTHIA METIVIER,
Petitioner,
v.

FILED
MAY 0 7 2021

Deb Haaland, Secretary

DEPARTMENT OF THE INTERIOR,

^UPREEMEFCn!fRTL,^K

Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Eighth
Circuit

PETITION FOR WRIT OF CERTIORARI

Cynthia Metivier
Pro se Petitioner
10851 B Falling Water Lane
Woodbury, Minnesota 55129
Telephone: (651) 337-1270
Email: cmet8@comcast.net

QUESTIONS PRESENTED
The questions presented are:
I. Whether the federal-sector provision of Title VII (42 U.S.C. § 2000e-16(a)), which
provides in pertinent part that "All personnel actions affecting employees or
applicants for employment ...shall be free from any discrimination based on sex..."
requires a plaintiff to prove that sex was a "motivating factor" rather than a “but for"
cause of the challenged personnel action in order to prove discrimination, retaliation
and harassment/hostile work environment.
II. Whether Title VII 41 U.S.C. § 2000e-2(m) also applies to a federal employee and
requires her to prove that sex was a "motivating factor" rather than a "but for" cause
of the challenged personnel action in order to prove a gender-discrimination claim.
If so, whether a federal employer waives its right to limiting a
federal employee’s remedies pursuant to 42 U.S.C. § 2000e-5(g)(2)(B)
when it failed to plead a same decision affirmative defense.
III. Whether Title VII's anti-retaliation provision (42 U.S.C. § 2000e-3, §§703 and
704) extends to a federal employee and protects her from adverse action because she
cooperated with her supervisor's internal investigation of a hostile work
environment claim.

LIST OF PARTIES AND RELATED CASES
The Petitioner is Cynthia Metivier.
The Respondent is Deb Haaland, Secretary, Department of
the Interior.
Metivier v. Bernhardt, No. l7-cv-02017-ECT, U.S. District Court for the District of
Minnesota. Judgment entered October 31, 2019.
Metivier v. Bernhardt, No. 20-1013, U.S. Court of Appeals for the Eighth Circuit.
Judgment entered December 8, 2020.
v_i

ii

TABLE OF CONTENTS

QUESTIONS PRESENTED

l

LIST OF PARTIES AND RELATED CASES

11

TABLE OF CONTENTS

m

TABLE OF AUTHORITIES

.v

OPINIONS AND ORDERS BELOW

1

JURISDICTION

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

1

STATEMENT OF THE CASE

2

A. LEGAL BACKGROUND

2

B. FACTUAL BACKGROUND

8

1.
2.
3.

4.

Original EEOC Complaint, Settlement Terms, and Supervisor's
Opposition.........................................................................................

8

Internal Investigation, Malfunctioning Office Equipment,
Poor Performance Review, and 3-day Suspension..............

10

EEOC filing, Reassignment of duties, Weekly Conference Calls,
Training of Replacement, Elimination of Staff, Exhausting
Administrative Remedies, and 5-day Suspension.........................

13

RIF Deficiencies and Pretext

17
23

C. PROCEEDINGS BELOW
REASONS FOR GRANTING THE PETITION
A.

The Eighth Circuit's decision conflicts with this Court's established
principles of statutory construction generally, and more specifically as
it relates to its interpretation of the terms "personnel actions",
"discrimination", "based on [a protected status]", and "free from any"
iii

27

TABLE OF CONTENTS-Continued

B.

language

27

The Eighth Circuit's decision conflicts with the decisions of other
Federal Circuits as well as the EEOC and MSPB when interpreting the
language of federal sector claims under § 2000e et. seq. generally and
§ 2000e-16 specifically............................................................................

33

38

CONCLUSION
APPENDIX TABLE OF CONTENTS
ORDER OF THE UNITED STATES COURT OF APPEALS
September 17, 2020................................................................

la

ORDER AND OPINION OF THE U.S. DISTRICT COURT FOR THE DISTRICT
OF MINNESOTA, October 31, 2019......................................................................... 3a
ORDER OF THE UNITED STATES COURT
OF APPEALS ON PETITION FOR REHEARING, December 8, 2020

iv

42a

TABLE OF AUTHORITIES
CASES
Page(s)

Ash v. Tyson Foods, Inc.,
546 U.S. 454. 456-57 (2006)

26

AuBuchon v. Geithner,
743 F.2d 638, 641 (8th Cir. 2014)

33

Babb v. Secretary, Department of Veterans Affairs,
743 F. App'x 280 (11th Cir. 2018)..............................

37

Babb v. Secretary, Department of Veterans Affairs,
No. 16-16492 (11th Cir. 2021)...................................

37

Babb v. Wilkie, Secretary of Veterans Affairs,
140 S. Ct. 1168 (2020).....................................

passim

Bostock v. Clayton Cty., Georgia,
140, S. Ct. 1731 (2020)
590 U.S.

7, 31

Brower v. Runyon,
178 F.3d 1002, 1005 (8th Cir. 1999

33

Burlington Northern and Santa Fe Ry. Co. v. White,
548 U.S. 53 (2006)........................................................

26, 31

Canino v. U.S. E.E.O.C.,
707 F.2d 468, 472 (11th Cir. 1983

37

Chadwick v. WellPoint, Inc.,
561 F.3d 38, 45 & n. 8 (1st Cir. 2009

34

Comcast v. National Association of African American-Owned Media et. al.,
589 U.S. (2020)........................................................................................................

33

Crawford v. Metropolitan Government of Nashville and Davidson County,
6, 7, 30
555 U.S. 271 (2009)
Desert Palace v. Costa,
539 U.S. 90 (2003)....

passim
v

TABLE OF AUTHORITIES—Continued
CASES
Page(s)
Diamond v. Colonial Life & Acc. Ins. Co.,
416 F.3d 310, 318 (4th Cir. 2005)..........

34

Engine Mfrs. Assn. v. South Coast Air Quality Mgmt. Dist.
541 U.S. 246, 252 (2004)..........................................................

28

Fogg v. Gonzales,
492 F.3d 447, 451 & n. * (D.C. 2007)

34

Ford v. Mabus,
629 F. 3d 198 (DC Cir. 2010)

5

Fye v. Okla. Corp. Comm'n,
516 F.3d 1217, 1224-26 (10th Cir. 2008)

34

Gomez-Perez v. Potter,
553 U.S. 474, 479, 487 (2008)

passim

Green v. Brennan,
, 36 S. Ct. 1769, 1775 n. 1 (2016)
578 U.S.
Griffith v. City of Des Moines,
387 F.3d 733, 736 (8th Cir. 2004)

36

33, 35

Gross v. FBL Financial Services, Inc.,
557 U.S. 167, 173-80 (2006)..............

4,5

Hilde v. City of Eveleth,
111 F.3d 998, 1007 (8th Cir. 2015)

17

Holcomb v. Iona Coll.,
521 F.3d, 141-42 (2d Cir. 2008

34

Hossack v. Floor Covering Assocs. of Joliet, Inc.,
492 F.3d 853, 860-62 (7th Cir. 2007)..................

34

Komis v. Sec'y of United States Dep't of Labor,
918 F.3d 289, 295 (3d Cir. 2019)......................

36

vi

TABLE OF AUTHORITIES—Continued
CASES

Page(s)

Makky v. Chertoff,
541 F.3d 205, 214 (3d Cir. 2008)

34

Matsushita Elec. Indus. Co. v. Zenith Radio Corp.,
475 U.S. 574, 587 (1986)........................................
McDonnell Douglas Corp. v. Green,
411 U.S. 792 (1973)......................

6

.passim

McGinest u. GTE Serv. Corp.,
360 F.3d 1103, 1122 (9*h Cir. 2004)

34

Meritor Savings Bank v. Vinson,
All U.S. 57 (1986)....................

32

Nita H. v. Dep't of Interior,
EEOC DOC 0320110050, 2014 WL 3788011, at *10 n. 6
(July 16, 2014)....................................................................
Oncale v. Sundowner Officeshore Services, Inc.
523 U.S. 75 (1998)............................................
Ponce v. Billington
679 F.3d 840 D.C. Cir. 2012)

35
7, 31, 32
8

Price Waterhouse v. Hopkins,
490 U.S. 228 (1989)............

2,3

Quigg v. Thomas Cnty. Sch. Dist.,
814 F.3d 1227, 1232, 1241 (11th Cir. 2016)

35, 36, 37

Rachid v. Jack In The Box, Inc.,
34

376 F.3d 305, 312 (5th Cir. 2004)
Reeves v. Sanders Plumbing,
530 U.S. 133 (2000)............

4,5

vii

TABLE OF AUTHORITIES—Continued
CASES

Page(s)

Russello v. United States,
464 U.S. 16, 23 (1983)...

28

Shaffer v. Potter,
499 F.3d 900, 904 (8th Cir. 2007)

33

Torgerson v. City of Rochester,
643 F. 3d 1031 (8th Cir. 2011)

5, 6, 33

Univ. of Texas Southwestern Med. v. Nassar,
570 US 338 (2013).......................................
U.S. v. Gonzales,
520 U.S. 1 (1997)

5, 35
28

White v. Baxter Healthcare Corp.,
533 F.3d 381 (6th Cir. 2008).....

6, 7, 32, 34

Young v. Warner-Jenkinson Co.,
152 F.3d 1018, 1024 & n. 6 (8th Cir. 1998)

22

STATUTES
43 C.F.R. § 4.352

9

25 U.S.C. § 372-2

8

28 U.S.C. § 1254(1)

1

29 U.S.C. § 623

4

29 U.S.C. § 623(a)

5
4,5

29 U.S.C. § 623(a)(1)

5

29 U.S.C. § 633a

5, 31

29 U.S.C. § 633a(a)

viii

TABLE OF AUTHORITIES—Continued

42 U.S.C.§ 2000e et. seq.

.passim

42 U.S.C. § 2000e-2

passim

42 U.S.C.§ 2000e-2(a)(l)

1,7

42 U.S.C.§ 2000e-2(a)(2)

1

42 U.S.C.§ 2000e-2(m)

passim

42 U.S.C.§ 2000e-3, et. seq

.passim
2, 6, 33

42 U.S.C.§ 2000e-3(a)

i, 3

42 U.S.C.§ 2000e-5(g)(2)(B)

.passim

42 U.S.C. § 2000e-16(a)

1,2

Civil Rights Act of 1964, Title VII
Civil Rights Act of 1991, 102-166, §107, 105 Stat. 1075-1076

3

OTHER AUTHORITIES
EEOC Enforcement Guidance on Retaliation and Related Issues,
No. 915.004 (August 25, 2016 (available at
https://www.eeoc. gov/laws/guidance/enforcement-guidance-retaliationand-related-issues)......................................................................................

35

Merriam-Webster,
(available at http://www.merriam-webster.com/dictionary/any)

28

OXFORD ENGLISH DICTIONARY,
(available at http://www.oed.com/view/Entrv/15856)

28

Timothy M. Tymkovich, The Problem with Pretext, 85 DENV. U. L.
REV. 503, 526 (2008)..........................................................................
William N. Eskridge. Jr. & Phillip P. Frickey, Statutory Interpretation
as Practical Reasoning, 42 STAN. L. REV. 321 (1990)..........................
ix

6

28

TABLE OF AUTHORITIES—Continued

COURT RULES
24

D. Minn Local Rule 7.1

6

Fed. R. Civ. P. 56(a)

x

OPINIONS AND ORDERS BELOW
The September 17, 2020 opinion of the court of appeals, which was not
designated for publication, is set out at pp. la-2a of the Appendix. The October 31,
2019 order of the district court, which was also unreported, is set out at pp. 3a-41a
of the Appendix. The December 8, 2020 order of the court of appeals is set out at p.
42a of the Appendix.
JURISDICTION
The decision of the court of appeals was entered on September 17, 2020. A
timely petition for rehearing and rehearing en banc was denied on December 8,
2020. This Court has jurisdiction pursuant to 28 U.S.C. § 1254(1).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Title VII of the Civil Rights Act of 1964, 42 U.S.C. § 2000e et
seq., makes it unlawful for an employer—(1) to fail or refuse to
hire or to discharge any individual, or otherwise to
discrimination against any individual with respect to his
compensation, terms, conditions, or privileges of employment,
because of such individuals race, color, religion, sex, or national
origin; or (2) to limit, segregate, or classify applicants for
employment in any way which would deprive or tend to deprive
any individual of employment opportunities or otherwise
adversely affect his status as an employee, because of such
individual’s race, color, religion, sex, or national origin. 42
U.S.C. § 2000e-2(a)(l) and (2).
Except as otherwise provided in this subchapter, an unlawful
employment practice is established when the complaining party
demonstrates that race, color, religion, sex, or national origin
was a motivating factor for any employment practice even
though other factors also motivated the practice. 42 U.S.C. §
2000e-2(m).

1

All personnel actions affecting employees or applicants for
employment...in executive agencies as defined in section 105 of
title 5...shall be made free from any discrimination based on
race, color, religion, sex, or national origin. 42 U.S.C. § 2000e16(a). (emphasis added)
It shall be an unlawful employment practice for an employer to
discriminate against any of his employees...because he has
opposed any practice made an unlawful employment practice by
this subchapter, or because he has made a charge, testified,
assisted, or participated in any manner in an investigation,
proceeding, or hearing under this subchapter. 42 U.S.C. § 2000e3(a) §§ 703 and 704.

STATEMENT OF THE CASE
This case presents questions of fundamental importance to the resolution of
thousands of VII federal-sector employment cases that are brought annually.
Primarily, it concerns the causation standard that applies to federal-sector
employment claims brought under Title VII of the Civil Rights Act of 1964 that
affects disparate treatment claims.
A.

LEGAL BACKGROUND
This case primarily concerns the causation standard to be applied to federal-

sector brought under Title VII, 42. U.S.C. § 2000e et. seq. But, it also addresses the
impact and scope that the proper causal standard has on defining adverse actions,
protected activity, and comparators.
In 1972, Congress extended Title VII's protections to federal employees,
codified as 42 U.S.C.§ 2000-16(a). Additionally, in Price Waterhouse v. Hopkins, 490
U.S. 228 (1989), this Court examined the causation standard pursuant to Title VII,

2

42 U.S.C.§ 2000e-2 and ruled that an employee could prove causation by showing
that the employee's membership in a protected class was a "motivating factor” in
the employer's adverse decision thereby establishing the mixed-motive framework.
Id. This Court in Price Waterhouse rejected the "but-for" causation reasoning
stating that Congress did not write "solely because of' and, therefore, it intended
that even a small amount of discrimination would be prohibited by the statute. Id at
241. 42 U.S.C. § 2000e-5(g)(2)(B) limits the employer's liability (but does not negate
liability) only where the employer pleads and proves that it would have made the
same decision in the absence of a discriminatory motive. In response to Price
Waterhouse, Congress enacted the Civil Rights Act of 1991 (CRA 1991), Pub L. No.
102-166, §107, 105 Stat. 1075-1076 amended Title VII by adding § 2000e-2(m). the
language in § 2000e-2(m) made clear that Congress intended to hold employers
liable when discrimination was a contributing factor in the employment action, even
if other motives existed.
In Desert Palace v. Costa, 539 U.S. 90 (2003), this Court held that neither
direct evidence nor a heightened evidentiary standard is required in a "mixed
motive" case pursuant to 42 U.S.C. § 2000e et. seq. in order to apply the "motivating
factor" causation analysis. Desert Palace also held that there are different types of
circumstantial evidence that can be used to show an inference of discrimination: 1)
an employer's ambiguous statements or behavior; 2) similarly situated individuals
outside of the protected class were treated more favorably; 3) pretext for the adverse
action (i.e., proof that the employer's explanation is unworthy of credence).

3

Post-Desert Palace, this Court found the burden-shifting framework
established in McDonnell Douglas Corp. v. Green, 411 U.S. 792 (1973) is not the
only way for a plaintiff to prove unlawful discrimination. "Proof that the defendant's
explanation is unworthy of credence [i.e., pretextual] is simply one form of
circumstantial evidence that is probative of intentional discrimination, and it may
be quite persuasive." Reeves v. Sanderson Plumbing, Inc., 530 U.S. 133 (2000). The
trier of fact can reasonably infer from the falsity of the explanation that the
employer is covering up a discriminatory purpose." Thus, a plaintiffs prima facie
case combined with sufficient evidence to find that the employer's asserted
justification is false, may permit the trier of fact to conclude that the employer
unlawfully discriminated. Id at 148.
In 2006, this Court held that the mixed-motive framework does not apply to
private-sector discrimination claims under the Age Discrimination in Employment
Act (ADEA) (29 U.S.C. § 623). Gross v. FBL Financial Services, Inc., 557 U.S. 167,
173-80 (2006). It found that § 623(a)(1) prohibits personnel decisions made "because
of' a person's age, and based on its ordinary usage, it meant that age was the
reason that the employer elected to act. Id. Consequently, "a plaintiff must prove
that age was the but-for cause of the employer's adverse action." in order to prove
age discrimination under the ADEA private-sector provision. Id. Although the
ADEA adopted much of its language directly from the Title VII discrimination
statute, it did not adopt the § 2000e-2(m) text, which provided for a motivating
factor test in Title VII cases. Unlike § 623(a)(1), this Court in Gomez-Perez v. Potter,

4

553 U.S. 474 (2008), described the federal-sector provision of the ADEA (§ 633a) as
a "broad, general ban on 'discrimination based on age'".
The D.C. Circuit Court in Ford v. Mabus, 629 F. 3d 198 (DC Cir. 2010) was
the only Federal Circuit Court to address the statutory language in the federalsector version of the ADEA— §633a. Because of what it described as "sweeping
language" it interpreted the "free from" text in §633a(a) more broadly and applied
the "motivating factor" causal standard.
Three years later, in University of Texas Southwestern Medical Center v.
Nassar, 570 U.S. 338 (2013), this Court held that while Title VII applies a mixed
motive discrimination framework to private-sector discrimination claims pursuant
to 42 U.S.C. § 2000e-2 (from which § 623(a) derived its language), that framework
did not apply to private-sector claims of retaliation under 42 U.S.C. § 2000-3,.
Neither Gross nor Nassar addressed the issue of a federal-sector claims present in
this case. Recently, while this matter was pending, this Court in Babb v. Wilkie,
Secretary of Veterans Affairs, 140 S. Ct. 1168 (2020) held that "the plain meaning of
§ 633a(a) demands that personnel actions be untainted by any consideration of age.”
In Torgerson v. City of Rochester, 643 F. 3d 1031 (8th Cir. 2011) (from which
the Eighth Circuit based its decision in this matter), concluded that there is no
"discrimination case exception" to summary judgment standard in restating this
Court's finding in Reeves that the courts should not "treat discrimination differently
from other ultimate questions of fact." However, in overcorrecting, the Eighth
Circuit violated its no "discrimination case exception" rule. Summary judgment

5

allows early disposition of cases only when there are no disputed material facts and
one side is entitled to prevail on the law, but it also guarantees a jury trial when
there are contested facts and when reasonable inferences by jurors can be drawn.
See Fed. R. CIV. P 56(a). A "discrimination case exception" can also exist when
cases are taken away from juries— as when there are questions of credibility,
omission of alternative causation frameworks, and factual disputes mistaken for
legal certainties through a very narrow definition of antidiscrimination terms and
concepts—as it would when cases are improperly submitted to them. Rather than
merely analyzing the components separately and in isolation from a subjective
perspective, a court's focus is to be based on the totality of circumstances in context
as viewed through the eyes of a reasonable juror. See generally Torgerson at 1054
(Smith, J. dissenting). Summary judgment should only be granted "[w]here the
record, taken as a whole, could not lead a rational trier of fact to find for the
nonmoving party." (emphasis added) See Matsushita Elec. Indus. Co. v. Zenith
Radio Corp., 475 U.S. 574, 587 (1986). This Court has never required the use of the
McDonnell Douglas framework nor was it intended to be exclusively and rigidly
used at the expense of other causal frameworks. See, e.g., White v. Baxter
Healthcare Corp., 533 F.3d 381, 388-89 (6th Cir. 2008); See also Timothy M.
Tymkovich, The Problem with Pretext, 85 DENY. U. L. REV. 503, 526 (2008).
In Crawford v. Metropolitan Gov't Nashville & Davidson County, Tenn., 555
U. S. 271 (2007), this Court confronted the anti-retaliation provision of Title VII in
holding that §704(a) of the 1964 CRA (42 § 2000e-3(a)) extends to employees who

6

cooperate in their employer's internal investigation, initiated by someone else, by
answering questions asked of them by an employer. They are not required to take
any further action following the investigation and prior to an adverse employment
action to preserve their retaliation claim. Id. Since Congress granted at least the
same rights to federal employees as it did to private employees, it intended that
these protections extend to them as well.
This Court has found that the critical issue in discrimination claims is
whether members of a protected category are exposed to disadvantageous terms or
conditions of employment to which others outside of the class are not exposed—or
said differently whether an employer treats a person worse than they would have
tolerated had the person been of another gender. See Oncale v. Sundowner
Officeshore Services, 523 U.S. 75 (1998); White v. Baxter Healthcare Corp., 533 F.3d
381 (6th Cir. 2008); Bostock v. Clayton Cty., Georgia, 590 U.S.

140, S. Ct. 1731

(2020).

Recently, this Court examined whether discrimination claims under the
federal-sector provision of ADEA, 29 USC 633(a)—which was adopted from and
contains the identical "shall be made free from any discrimination based on
[protected class]" language to the Title VII provision—requires a plaintiff to prove
that age was a "but for" cause of the personnel action, and it found that it did not.
Babb. Unlike §703 (a)(1) of Title VII, 42 U.S.C. § 2000e-2(a)(l) (private sector
provision that prohibits discrimination "because of sex...) or 42 U.S.C. § 2000e-2(m),
(the "mixed motives" provision of Title VII, that provides that discrimination is

7

established when one of those characteristics "was a motivating factor for any
employment practice, even though other factors also motivated the practice"), §717
of Title VII, 42 U.S.C. § 2000-16(a), (federal sector provision) provides that [a]ll
personnel actions affecting employees of federal government agencies "shall be
made free from any discrimination... " (emphasis added) (from amicus brief of
AARP, Washington Employment Lawyers, etc. in Ponce v. Billington, 679 F.3d 840
D.C. Cir. 2012) (December 2011).
The Eighth Circuit erred when it failed to take into account this Court's
previous findings in Babb that the causation standards governing federal-sector
cases differs from private-sector cases and "it is not anomalous to hold the Federal
Government to a stricter standard than private employers..."
B. Factual Background
1.

Original EEOC Complaint, Settlement terms and Supervisor's
Opposition.

Petitioner was employed by the Respondent for nearly twelve years before
her employment was terminated in July 2014. On March 4, 2007, Petitioner began
as an Indian Probate Judge (pursuant to 25 U.S.C. § 372-2) with the Respondent's
Office of Hearings and Appeals Office ("OHA"), Probate Division, Twin Cities Field
Office, Minnesota. She filed her original Equal Employment Opportunity
Commission ("EEOC") complaint on December 2, 2009 after 32 months of ongoing
sex discrimination—including explicit sexual jokes and comments, and disparate
treatment by her direct supervisor, Administrative Law Judge Richard Hough

8

('Hough") —, after she was berated and harassed by Hough's supervisor,
Administrative Law Judge Earl Waits ("Waits") for reporting her disparate
treatment, and after reporting both to Director Bob More ("More"). In December
2009, Principal Deputy Director, Janet Goodwin ("Goodwin") joined More on a visit
to the Twin Cities' office, where she was fully informed of Petitioner's VII claims, if
not before.
On or about February 28, 2010, More, over Petitioner's request to remain as
an Indian Probate Judge in the Probate Hearings Division ("PHD"), reassigned her
to the position of Administrative Judge1 and head of the White Earth Land
Settlement Act ("WELSA") Hearings Division replacing Administrative Judge
Thomas Pfister ("Pfister"). In turn, Pfister assumed Petitioner's position as an
Indian Probate Judge. As a result on February 28, 2010, Goodwin became
Petitioner's direct supervisor, and she continued to serve in that role until
Petitioner's termination on July 22, 2014.2
Petitioner entered into a settlement agreement with More on June 3, 2011 to
resolve her pending EEOC complaint. Within days of the settlement agreement,
More directed Goodwin to seek office space for the Plaintiff in the Twin Cities,

1 See 43 C.F.R. § 4.352. The district court erred in failing to acknowledge Petitioner's title
and duties as an "Administrative Judge" as indicated on her performance appraisals and on
thousands of her judicial decisions.
2Although, on paper, Goodwin formally designated Hope Mentore-Smith ("Smith")
as Petitioner's supervisor on March 31, 2014—the day prior to Goodwin informing
Petitioner that she would be terminated— Goodwin continued performing all
supervisory duties over the Petitioner, including designating her performance
standards and directly overseeing her work until she was terminated.
9

Minnesota area pursuant to the terms of the settlement. It is undisputed that
during the walkthrough of the office space, Goodwin told the Petitioner that she
objected to the terms of the settlement agreement that established the WELSA
office in Bloomington, Minnesota.
2.

Internal Investigation, Malfunctioning Office Equipment,
Poor Performance Review, and 3-day Suspension.
On September 20, 2012, the Petitioner's assigned Paralegal, Cheryl Schwartz

("Schwartz"), resigned and her position remained vacant throughout the remaining
two years of Petitioner's employment, despite More's pre-approval of funds to fill the
paralegal vacancy and Petitioner's selection of a replacement paralegal.
On September 20-21, 2012, Goodwin conducted an internal investigation
(protected activity) into Schwartz's false and unfounded allegations of a hostile
work environment against the Petitioner through lengthy and aggressive
questioning of Petitioner—including openly questioning Petitioner's responses
without justification. Despite the false accusations and the lengthy and aggressive
questioning of Petitioner, Petitioner fully cooperated and provided complete and
truthful responses to Goodwin's questions. The false claims were never pursued by
anyone other than Goodwin.
Three months later, on December 20, 2012, after completing her investigation
and admittedly knowing3 that the claims were unsubstantiated and without merit,

3 Goodwin twice provided sworn testimony acknowledging that the accusations
against the Petitioner were unsubstantiated.
10

Goodwin gave Petitioner a poor performance review, specifically citing the
knowingly false allegations as her reason for the poor performance review—
knowing that such unfounded defamatory comments would permanently negatively
affect Petitioner's personnel file, damage her unvarnished legal reputation, cause
her to lose her annual bonus, affect future job prospects (that rely upon past
performance ratings), and it would reduce her tenure status for a future Reduction
in Force ("RIF"). Also, Goodwin unlawfully used Petitioner's cooperation and honest
responses to Goodwin's questions during an internal investigation/protected activity
as the basis for giving Petitioner a poor performance rating and a 3-day suspension.
During the internal investigation, Petitioner was repeatedly asked by Goodwin to
explain Schwartz's allegations and accused of not being fully forthcoming.
Unsatisfied with Petitioner's initial response, Goodwin pushed further. In an
attempt to fully cooperate and resolve the situation, Petitioner told Goodwin that
Schwartz experienced personal challenges in addition to the many ongoing
challenges at the office— the office had been understaffed for over a year, Petitioner
and Schwartz were working with a poorly functioning telephone and office
equipment, and Schwartz had worked overtime to manually input nearly all of the
lost case file data within the WELSA docketing system caused by a software update
at main headquarters—all those things together could explain Schwartz's stress.4

4 Goodwin also repeatedly refused to finance necessities in Petitioner's office
space( including denying funds for a staff member's desk), while adding or enlarging
offices led by Petitioner's male counterpart, office heads Waits and Administrative
Law Harvey Sweitzer ("Sweitzer") More intervened to authorize the desk and
approve the hiring of a full time legal assistant.)
11

On December 20, 2013, Goodwin also advised Petitioner that she would be
proposing a suspension for the same actions. Thereafter, More retired on January 3,
2013 and Goodwin was appointed as the "Acting" Director. On January 8, 2013,
Petitioner requested that Goodwin reconsider her performance rating, but Goodwin
refused. On January 22, 2013, Petitioner formally requested that Goodwin's
supervisor, Andrew Jackson ("Jackson"), reconsider her performance rating. In her
request for reconsideration, Petitioner objected to Goodwin's improper investigative
procedure and the use of Petitioners truthful responses and cooperation for an illicit
purpose. Her request was denied on February 11, 2013.5
On January 11, 2013, Goodwin proposed suspending Petitioner for 3 days
without pay. Petitioner responded to the suspension on January 21, 2013. Petitioner
again raised serious concerns about Goodwin's improper treatment of her and
Goodwin's suspension based on a false claims of "unsubstantiated statements" and
"unsubstantiated negative statements" allegedly made by Petitioner in her
responses during an internal investigation/protected activity on September 20-21,
2012. Petitioner truthfully "responded" to Goodwin's persistent questioning about
Schwartz's alleged Title VII claims during a protected activity—claims for which
Goodwin twice admitted under oath were never substantiated. They would never be
substantiated because Petitioner's responses were truthful, Goodwin's reasons for
taking these adverse actions were baseless, and the underlying claims against

5 Jackson did not personally address any of Petitioner's concerns but rather
delegated them to others.
12

Petitioner were simply always untrue, despite Goodwin's three and a half-month
attempt to find support for her gender-based bias.6 Thereafter Petitioner continued
to exhaust her administrative remedies.
3.

EEOC filing, Reassignment of Duties, Weekly Conference Calls,
Training of Replacement, Elimination of Staff, Exhausting
Administrative Remedies, and 5-day Suspension.
On January 30, 2013, Goodwin directed the Petitioner to attend weekly

conference calls (which were not previously required of the Petitioner prior her
complaints against Goodwin nor required of any other field office), which were used
to harass and verbally abuse Petitioner.7 On February 6, 2013, Petitioner filed an

6 Petitioner presented evidence of Goodwin's history of disparate treatment against
female subordinates. Goodwin's personal secretary, Paula Hubbard, testified to
Goodwin's unwarranted written reprimand and harsh treatment of her and other
females, including removing Administrative Officer Jacqueline Moran's telework
and flex-work privilege despite her long commute, causing her to resign. Goodwin
testified that as Minnesota based Legal Assistant, Barbara Kratzke's 3rd level
supervisor, she bypassed lower levels supervisors to discipline Kratzke for leave
violations occurring in another office. Conversely, Goodwin took no disciplinary
action against male subordinates, including Hough who made explicitly sexual
comments and distributed clear sexual material.
7E.g., On the May 30, 2013 teleconference when Petitioner could not hear Goodwin
because of the poorly functioning telephone, Goodwin violently yelled "You can't
hear me because you are still talking!" On the same call, when Petitioner inquired
about the paralegal position (which had been vacant since September 2012) that
she heard had been canceled, Goodwin admitted to having eliminate the position,
and she became angry. When Petitioner expressed concern over her ability to
perform her duties without assigned staff, Goodwin yelled back. Goodwin raised her
voice, became very abusive, condescending, and disrespectful towards Petitioner,
causing the Legal Assistant, Melody Negron ("Negron"), to cover her mouth in
shock. Shortly thereafter, Negron resigned. She later testified that she was shocked
by Goodwin's remarks. On June 6, 2013 teleconference, Goodwin advised Petitioner
that she would not be filling the Legal Assistant position. Because Petitioner was
soon to be entirely without staff, she asked whether a Legal Assistant could be
assigned to her office from another Bloomington office. Goodwin responded: "Why
13

informal grievance with Jackson, where among other things, she specifically raised
issues of disparate treatment. When Petitioner's efforts proved unsuccessful, she
formally contacted the EEOC office on February 27, 2013, while continuing to raise
concerns about Goodwin's treatment through Respondent's formal grievance and
Respondent's other available administrative remedial processes. On March 26,
2013, Petitioner was suspended for three days.
As early as spring of 2013, according to Hubbard's testimony—while Goodwin
was "Acting" Director, before she had the authority to conduct a RIF or determine

would I do that? This isn't about helping you; this is what is best for the
department!" After having previously transferred Petitioner's incoming cases to
another office on April 16, 2013, Goodwin also responded that "[she] want[ed] it
perfectly clear that they [Salt Lake City staff] will not be working for you
[Petitioner] or taking any direction from you. They work for Judge Harvey Sweitzer,
and you will be responsible for training them to perform the WELSA cases. In fact,
I'm adding the duty of training them to your EPAP [Employee Performance
Appraisal Plan]. You will train them, and they alone will decide if your current
procedures make sense to them. They will be most likely be changing them once
they understand what you are doing, and they will notify you of the changes!". After
months of abuse by Goodwin, Petitioner became physically ill, and she asked twice
to take a break. When Goodwin refused, for the sake of her health, Petitioner
excused herself and politely ended the call. Soon thereafter, Petitioner sought
medical treatment. In response to Goodwin's abusive actions, Negron stated, "No
one should be expected to take such abusive treatment. It is just too much. No one
could possibly respond to this degree of treatment effectively." Goodwin's secretary,
Paula Hubbard ("Hubbard"), testified that she heard Goodwin yelling at the
Petitioner from her office down the hall from Goodwin. During these events,
Petitioner reached out to Jackson by telephone and e-mail asking for assistance, but
he did not respond.
On June 7, 2013, despite Petitioner being placed on sick leave by her physician
because of the events on June 6, 2013, Goodwin continued to harass Petitioner
through an email sent to her personal e-mail account that contained false
accusations. Although the e-mail did not request a response, when Petitioner did
not respond to the false accusations, Goodwin charged her with failing to do so in a
5-day suspension.
14

who might be eligible for it—she directed her secretary, Hubbard, not to return
WELSA records to the WELSA (Petitioner's) office because she planned to close
Petitioner's office.
On April 16, 2013, Goodwin, then "Acting" Director—without authority to
conduct a reorganization or a RIF and without notifying the Petitioner in advance
transferred all incoming new WELSA cases from the Petitioner to Sweitzer (who
was located in a separate division in Salt Lake City). While Goodwin told Petitioner
that she was doing so to assist her temporarily, she simultaneously told Sweitzer
she planned to close Petitioner's office. The WELSA cases had always been
exclusively adjudicated by WELSA office pursuant to the WELSA Act, and neither
Sweitzer nor his staff had any prior experience handling WELSA cases. Soon
thereafter, (despite prior authorization and pre-funding to fill the vacancy by More,
and the selection of a candidate by Petitioner as the hiring official) unbeknownst to
Petitioner, on or about April 24, 2013, Goodwin intervened and canceled the
paralegal position authorized to assist the Petitioner.8 Despite the fact that all
judges had historically been assigned both a Paralegal and Legal Assistant, and all
male judges were assigned had at least one of each and had access to others within
their division, Petitioner was left without staff members within her division

8 Petitioner only learned of the termination of the paralegal position from the
candidate herself.
15

throughout the remainder other employment. 9 At the same time, Goodwin
continued to fill other vacancies.10
Goodwin made false allegations not only in Petitioner's permanent personnel
file, but to others as well. Goodwin used the teleconferences to subject Petitioner to
on going verbal abuse and hostility by repeatedly raising her voice; she questioned
Petitioner's integrity; and refused to provide Petitioner with adequate staff and
equipment necessary to perform her duties. All of this culminated into Goodwin
issuing a second 5-day suspension.11 No reasonable jury would find Petitioner's
grievances about Goodwin's extreme actions to be "run of the mill workplace strife"
as described by the district court.

9 Petitioner did not have an assigned Paralegal from September 2012 to July 2014
nor did she have an assigned Legal Assistant from July 2013 to July 2014. Despite
Petitioner being stripped of her supervisor duties, Goodwin refused to remove this
element from Petitioner's performance ratings during FY2014.
10 During the first half of 2013, Goodwin hired three additional Indian Probate
Judges (a position previously held by the Petitioner and comparative with her
position as an Administrative Judge).
11 On July 11, 2013 Petitioner received a 'Notice of Proposal to Suspend" her for five
days. During a conference call the week of July 14, 2013 Goodwin’s primary purpose
of the call was to advise Petitioner that she filed a second proposal to suspend and
to inquire into Petitioner's pending EEO matter. During this call, she became
confrontational about Petitioner's selection of a mediator, which Petitioner
arranged with the department's Office of Collaborative Action and Dispute
Resolution ("CADR") to help resolve her EEO claims.)
16

4.

RIF Deficiencies and Termination under the Pretext of a RIF

The district court incorrectly found that the RIF deficiencies had no bearing
on whether it was conducted for a legitimate reason when the Respondent's failure
to follow its own RIF policies supports an inference of discriminatory motive. Hilde
v. City of Eveleth, 777 F.3d 998, 1007 (8th Cir. 2015). Since the RIF was improperly
conducted, by its very nature it lacks legitimacy. The RIF was fraught with errors,
and Goodwin willfully violated established policies and procedures. She did not
have the requisite authority to develop a reorganization plan12; she did not have the
required RIF policy prior to implementing the RIF; she did not apply the RIF
neutrally or uniformly; she failed to take into account less severe measures; she did
not have the required consultation with the tribes; she took actions inconsistent
with her stated purpose for the RIF; and she subsequently continued to shift her
reasons for the RIF to justify such actions. Additionally, the Respondent's policy
was to avoid RIFs and to opt for other measures that would preserve jobs. Moreover,
Respondent clearly erred at the onset when it misapplied Plaintiffs tenure group,
which is a fundamental and essential element to identifying whether Plaintiff was
eligible for the RIF. The district court erroneously based its findings on the
incorrect assumption that Goodwin had to cut positions, that her approval had been

12 Jackson testified that Goodwin approached him about the reorganization plan and
that it was highly unusual for an "Acting" Director to take such action as they
normally take on more of a caretaker role. He also testified that "this wasn't the last
step in the process. This was, you know, an important step but since all of these
effected client service to Native Americans they also required consultation."
17

approved without conditions, and that the male employees work could riot be
absorbed, despite ample evidence to the contrary.
Although in April 2013 it was "estimated" that there may be a need to reduce
four full time employees, that was 15 months before Plaintiffs position was
terminated in July 2014. By then, more than five times that many full-time
employees resigned or retired (eight times as many according to Hubbard's
testimony) for a total of at least 21-40 individuals, making the need to eliminate any
further positions moot. Furthermore, Goodwin obtained approval contingent upon
proper consultation with the tribes, which did not occur. In March 2014, Goodwin's
supervisor, Jackson, made it clear after signing the proposal that there was more to
be done before the RIF could be implemented, including proper consultation with
the tribes. Within days, Jackson transferred to another agency, and Goodwin never
completed the requisite consultation with the tribe.
Both males, Judge Richard Hines ("Hines") and Attorney Advisor Scott
Fukumoto's ("Fukumoto") positions were also selected to be eliminated under the
RIF policies, but Goodwin carved out an exception under the pretext that their
positions were needed. Clearly, Fukumoto's position was not needed as Goodwin
transferred him to another division (the division occupied by the Plaintiff) during
the time of the RIF. As for Hines, judges regularly shared dockets across the U.S.,
and Goodwin had just hired three additional judges who could have easily absorbed
the work. Moreover, the Plaintiff had performed the exact same judicial functions in
the Probate Divisions for 6 years, long before Hines, at a lower cost to the

18

Department—both because her salary was lower and because it was be
supplemented by agency. If Goodwin was truly savings driven as she alleged, she
would have clearly retained the Plaintiff at the lower cost.
Prior to taking any actions to terminate Petitioner's office, Goodwin was
required to counsel with the White Earth Tribe. On September 9, 2013, (five days
after Petitioner met with an investigator to discuss her EEOC complaint), Goodwin
wrote to the White Earth Tribal Council Chairwoman Erma J. Vizenor ("Vizenor")
informing Vizenor of her plans to close Petitioner's office and to terminate her
position. Vizenor objected to Goodwin's plans. On September 12, 2013, Goodwin
canceled the mediation scheduled for September, which was initiated by the
Petitioner to resolve the EEO matter. In October, Petitioner was suspended for five
days. On October 24, 2013, Petitioner's informal grievance and requested relief
from the 5-day suspension was denied. On November 15, 2013, Goodwin wrote to
Vizenor a second time informing her that she was moving forward with her plan to
terminate Petitioner's position over Vizenor's objection.
On April 1, 2014, Goodwin, without warning, informed the Petitioner that
her position was being terminated and the WELSA office closed. On April 29, 2014,
Petitioner received a "Certificate of Expected Separation" ("CES") notifying her that
its purpose was to allow her to participate in the Department of the Interior's
Career Transition Assistance Plan program ('CTAP') prior to the expected date of
the reduction in force. On May 13, 2014, Petitioner believing that she would have a
hiring preferences according to the CTAP language in the CES, she applied for

19

OHA's Administrative Judge vacancy on the Interior Board of Indian Appeals
("IBIA"). On May 21, 2014, Petitioner received a RIF notice that contradicted the
CES and stated that she was not eligible to participate in the agency's CTAP
program (although the Respondent was aware that the Petitioner had previously
relied upon this language). On August 22, 2014, the Petitioner was terminated
under the pretext of a RIF while accommodations were made for similarly situated
male employees, Hines and Fukumoto. 13 Petitioner had a longer tenure with the
agency and more experience adjudicating probate estates in both the PHD and
WELSA division than either Hines or Fukumoto. Waits testified that despite the
fact that Hines met the criteria for the RIF eligibility pool, he was asked whether he
wished to be retained, he indicated that he did, and he was permitted to telework
once his office was closed. Petitioner was not given an option. In fact, Goodwin
testified that she intentionally did not give Petitioner advance notification.
Despite Petitioner's outstanding performance ratings and expertise both as
an Indian Probate Judge and an Administrative Judge in the WELSA and PHD
Divisions, which uniquely qualified her to fill the Administrative Judge vacancy on
the IBIA, Goodwin chose a far less experienced and less tenured male attorney,
Fukumoto, (who lacked any judicial experience with the agency) to serve as Acting
Administrative Judge on the IBIA. In addition, the selecting official for the position,

13 Based on Office of Personnel Management (OPM) regulations, employees are
ranked according to established criteria in order to determine whether they are
selected for a RIF. Both Hines and Fukumoto met the criteria for the RIF eligibility,
and they would have been terminated pursuant to the RIF but for the exceptions
they were granted by Goodwin.
20

Chief Administrative Judge Steven Lincheid ("Lincheid"), testified that he was
[improperly] informed prior to selecting the Administrative Judge that the
Petitioner had filed an EEO complaint against Goodwin.14 He also testified that he
was surprised with Goodwin's temporary placement of Fukumoto because he lacked
the experience. The Agency ultimately selected a male candidate to permanently fill
the position and did not take into consideration Petitioner's displacement as the
result of the RIF. Of the six individuals selected to be terminated by the purported
RIF, accommodations were made for two males, Fukumoto and Hines, to remain
with the OHA (to either work from home or transfer within OHA), and the four
females, including the Petitioner, were all selected to be terminated.
The district court consistently drew inferences in favor of the Respondent
rather than the Petitioner, and it used subjective and biased language—often
adopting Goodwin's version of facts that were clearly inaccurate or deceptive and
omitting clearly conflicting evidence. The district court referred to the harassing
telephone calls as "check in calls" and minimized Plaintiffs adherence to the agency
policies, EEO complaints of two disciplinary actions, poor performance review based
on false information, denial of appropriate staff, refusal to provide a proper
functioning telephone, a reassignment of her duties, and generally reporting of Title
VII violations by referring to them as "run-of the mill workplace strife" when they
were anything but. In addition, the district court relied on outdated budgetary

14 Lincheid was also supervised by Goodwin, and he was located within the same
office space as she in Arlington, VA.
21

recommendations intended to avoid the need for a RIF (that had been long resolved
by attrition but nevertheless used as a pretext for RIF thirteen months later). It
also omitted evidence of Goodwin's excessive spending on travel, non-essential
equipment, and office expansions. Furthermore, the district court's references to
consultation and input with Plaintiffs counterpart head—Waits [head of the
Probate Division] omitted the fact that Goodwin admitted under oath that she
purposefully left Plaintiff [head of WELSA Division] out of the discussions
traditionally involving the heads of the affected divisions and purposefully kept
Plaintiff uninformed. Contrary to the evidence, the district court incorrectly found
that "...suffice it to say, [the RIF] was based on established, objective largely
quantifiable criteria", and it incorrectly held, counter to established precedent, that
the serious deficiencies in the RIF had "no bearing" on its legitimacy or on the
discriminatory animus. See Young v. Warner- Jenkinson Co., 152 F.3d 1018, 1024 &
n. 6 (8th Cir. 1998) (an employer's failure to follow its own policies may support an
inference of pretext).
The district court admitted unduly prejudicial hearsay evidence into the
record by allowing Goodwin to attach the statements allegedly made by Schwartz
and Dahlke to her declaration. Goodwin and Dahkle lacked first-hand knowledge
(Dahlke had resigned over a year before the incident), and their statements were
unduly prejudicial, false, unsigned, and unverified; there was no foundation; and
they were clearly used to prove the fact therein—that the allegations against
Plaintiff. The district also improperly disallowed Plaintiffs separate disputed facts

22

despite the fact that the district court rules do not prohibit it, and it struck
Plaintiffs reply brief, although the parties agreed to combine their pleadings in
tandem so as to ensure judicial economy.

C. PROCEEDINGS BELOW
The district court case stems from two separate matters arising from the
Merit System Protection Board ("MSPB") and the Equal Employment Opportunity
Commission ("EEOC') that eventually merged together in this matter. The MSPB
matter exclusively dealt with the Petitioner's termination whereas that EEOC
matter dealt with the discriminatory actions leading up to, but not including, the
termination. Both cases ran parallel. Although the MSPB found in Respondent's
favor solely on the issue of the RIF, on appeal to the EEOC, it found that the MSPB
used an improper standard in arriving at its conclusion, but upheld the termination
nevertheless. Petitioner filed this matter in district court appealing the MSPB order
in June 2017 while the EEOC matter addressing the non-termination issues was
ongoing.
In the separate EEOC case, which dealt with all other claims, after a
thorough investigation, the EEOC found reasonable cause to believe that
discrimination occurred and assigned this matter to an Administrative Judge for
hearing. The Respondent's motion for summary judgment was not granted.
Respondent then moved to dismiss arguing that the issues were identical to those

23

presented in district court. As a result, the EEOC dismissed the action to allow it to
proceed in district court.
Respondent filed its summary judgment in district court on all counts and
Petitioner filed a timely cross-motion in response.15 Respondent's experienced
counsel suggested and Petitioner agreed that it would be helpful to the district court
if the parties were to combine their summary judgment pleadings in tandem with
Respondent's counsel filing first, followed by Petitioner's cross-motion and response
to Respondent's motion, etc. It was with that format and timing in mind that
Petitioner filed her pleadings, including her reply brief. Petitioner agreed to the two
extensions requested by Respondent's counsel and adjusted her schedule to the
comply with the extended deadlines and altered her filings accordingly in order to
comport with D. Minn Local Rule 7.1. In her cross-motion, Petitioner moved to
strike the attached letters and e-mails attached to Goodwin's Declaration that she
asserts are hearsay evidence.
The summary judgment matter was heard on August 5, 2019. The Petitioner
was not made aware of any deficiencies nor given an opportunity to amend her
pleadings. On October 31, 2019, the district court granted summary judgment to the
Respondent, denied Petitioner's motion to strike, and disallowed Petitioner's reply
brief and separate statement of undisputed facts. First, the district court erred in
finding that there were no disputed issues of material fact presenting a triable issue

15 The parties agreed to Respondent's two requests for continuances as well as the
Petitioner's single request, and the court approved all three.
24

on Petitioner's claims when it limited its analysis to the McDonnell Douglas "but
for" causation framework by omitting or undermining evidence of adverse actions
(i.e., poor performance review, Petitioner's cooperation in an internal investigation,
lack of staff and equipment, and reassignment of her work duties), disregarding
discriminatory and retaliatory intent and pretext, (i.e., Respondent's failure to
properly define and apply comparators and supervisor's abusive conduct;
Respondent's illicit and shifting reasons for disparate treatment; and Respondent's
failure to neutrally apply RIF policies and procedures).
Second, the district court erred in failing to take into account Petitioner's
claims under the "motivating factor" framework analysis pursuant to 42 U.S.C. §
2000e-2(m) or § 2000e-16, which would have raised a jury question as to whether
discrimination and/or retaliation was a motivating factor in the personnel action.
The conclusory language in the district court's decision stating "Because Metivier
points to no direct evidence of sex discrimination, her claim must be analyzed under
the McDonnell Douglas burden-shifting framework16" and "Because Metivier has
introduced no direct evidence of unlawful retaliation, her claim must be analyzed
under the McDonnell Douglas framework" clearly reflects that the analysis was
limited to the "but for" McDonnell Douglas framework.17 (DCD 24, 34).

16 Although the district court attempted to define "direct evidence" in a footnote, it
failed to apply the motivating factor analysis to the facts, and in so doing ignored
material facts showing circumstantial evidence of discrimination and retaliation.

17 "DCD" refers to District Court Decision.
25

Third, the district erred by not considering the accumulative and collective
effect of the Petitioner's supervisor's abusive conduct over time, rather than
measuring each incident separately and in isolation when evaluating Petitioner s
hostile work environment claim. Additionally, it erred by not applying the
retaliation based hostile work environment standard set forth in Burlington
Northern & Santa Fe Railway Co. u. White, 548 U.S. 53, 57 (2006), which states
that the retaliation is material if it "well might have dissuaded a reasonable worker
from making or supporting a charge of discrimination."
Fourth, the district court erred by taking an acontextual and
compartmentalized approach by marginalizing (or in some cases disregarding
altogether) hostile remarks, comparators, and treatment by Petitioner's supervisor
and very narrowly restricting its analysis to seeking evidence of clear stray
remarks, obvious stereotyping, and requiring contemporaneous male colleagues
when comparators are not required to be contemporaneous. This Court rejected the
claim that comparators must be "so apparent as virtually to jump off the page and
slap you in the face.” Ash v. Tyson Foods, Inc., 546 U.S. 454. 456-57 (2006).
Petitioner argued on appeal to the Eighth Circuit that the district court erred
in granting summary judgment to the Respondent because it erred by: 1) allowing
the unauthenticated, unsworn and false statements of Schwartz and Dahlke
attached to Goodwin's declaration; 2) disallowing Petitioner's response to
Respondent's statement of undisputed material facts and reply brief; 3) failing to

26

apply the motivating factor causation standard18, to acknowledge adverse
employment actions, to take into account evidence of inferences of discrimination, to
properly apply the correct standard to comparators; and to consider RIF
deficiencies, improper procedures, protected activity, and evidence of pretext in
Petitioner's gender discrimination, retaliation, and hostile work environment
claims. The Eighth Circuit affirmed the district court's granting of summary
judgment without comment, and it denied petitioner's timely petition for panel
rehearing or rehearing en banc.
REASONS FOR GRANTING THE PETITION
Currently, federal employees filing claims under Title VII are subjected to
different burdens of proof and means of evaluating their evidence depending upon
their Circuit. This case provides this Court with an opportunity to clarify the
statutory causation framework applicable to Title VII federal-sector discrimination,
retaliation, and hostile work environment claims as well as closing the chasmic
divide between the Federal Circuits as to the scope in defining adverse actions,
protected activity, and comparators under the appropriate causation standard.
A.

The Eighth Circuit's decision conflicts with this Court's established
principles of statutory construction generally, and more specifically as it
relates to its interpretation of the terms "personnel actions", "discrimination",
"based on [a protected status or activity]", and "free from any" language.

18 Petitioner pleaded violations alternatively pursuant to 42 U.S.C. § 2000e et. seq.
and 42 U.S.C. § 20003e-16 throughout her Complaint. Respondent did not raise a
"same decision" affirmative defense.
27

There is a long established method for interpreting federal statutes. This Court
has held that "statutory construction must begin with the language employed by
Congress and the assumption that the ordinary meaning of that language
accurately expresses the legislative purpose." Engine Mfrs. Assn. u. South Coast
Air Quality Mgmt. Dist., 541 U.S. 246, 252 (2004). Courts first look to the plain
meaning of the text as ordinarily used, next to statutory structure, and then to
sources outside the four corners of the statute. William N. Eskridge. Jr. & Phillip
P. Frickey, Statutory Interpretation as Practical Reasoning, 42 STAN. L. REV. 321
(1990). Where Congress uses different language within separate provisions of the
same statute, we must give effect to those differences and it can be assumed that it
was done intentionally. See generally Russello v. United States, 464 U.S. 16, 23
(1983). Among the Title VII provisions contained in Title 42 U.S.C. § 2000e et seq.
pertaining to gender, § 2000e-2 generally prohibits discrimination "because of
sex... " while also requiring only that sex be a "motivating factor for any
employment practice" to be actionable under § 2000e-2m; 2000e-3 et. seq. prohibits
retaliation "based on sex...", and§ 2000e-16 requires that all personnel actions
affecting federal employees "shall be made "free from any discrimination based on
...sex..."

Merriam-Webster's defines "any" as "one or some indiscriminately of
whatever kind". Merriam-Webster, http://www.merriam-webster.com/dictionary
/any, (last visited April 19, 2021.) See also United States v. Gonzales, 520 U.S. 1, 5
(1997). "Based on" means to "...form a foundation for." OXFORD ENGLISH

28

DICTIONARY, http://www.oed.com/view/Entrv/15856. In other words, when it’s an
essential part. In Babb at 1171, this Court carefully scrutinized the identical
"critical statutory language" found in the federal-sector Title VII provision §2000e16 as the ADEA provision (29 U.S.C. § 633(a)) and found that it does not mandate
a "but-for" causation requirement. Noting that the adjectival phrase "based on age
[or a protected trait or protected activity]" modified the noun 'discrimination,' not
"personnel actions," this Court held in Babb that "[a]s a result, age [or other
protected trait or protected activity] must be a but-for cause of discrimination—
that is, of differential treatment-but not necessarily a but-for cause of a personnel
action itself'. Id. Next, this Court determined that the adverbial phrase "free from
any discrimination” modified the verb "made", and informs us as to "how a
personnel action must be 'made,

I ft

Id. Therefore, "[i]f age [or sex] discrimination

plays any part in the way a decisions is made," then that decision "is not made in a
way that is untainted by such discrimination." Id. at 1174. In summary, "[T]he
statute does not require proof that an employment decision would have turned out
differently if age [or sex] had not been taken into account"—in other words, it does
not require that age, sex or any protected trait or protected activity be the but-for
cause of an adverse action. Id.
This Court has also held that the "free from" language used in the above
provisions broadly applies to discrimination generally, including retaliation claims.
See Gomez-Perez at 485-91 (2008) ("[Retaliation for complaining about [a protected
trait or protected activity]is 'discrimination' based on [that protected trait or

29

protected activity]. Id. at 488. Therefore, Petitioner may establish her federalsector Title VII claims if the personnel actions were tainted by any retaliation for
the protected activity, including those actions that were not a but-for cause of the
personnel action.
The proper interpretation of "protected activity" and of the above statutory
language, was illustrated in Crawford where this Court held that Title VII's
"antiretaliation provision's protections extends to an employee who speaks out
about allegations of discrimination not on her own initiative, but in answering
questions during her employer's internal investigation." at issue here. Id.at 848.
Here, Petitioner honestly answered questions in direct response to allegations of a
hostile work environment asked of her by her direct supervisor, Goodwin, during
an internal investigation on September 20-21, 2012. In retaliation for her truthful
answers to questioning, Goodwin gave her a poor performance rating and
suspended her (resulting in a loss of pay, a lower RIF ranking, and harm to
Petitioner's future job prospects). Goodwin specifically cited Petitioner's responses
as the direct cause for the adverse actions taken, despite knowing (and later twice
admitting under oath) that the basis for the personnel actions were
unsubstantiated. Such retaliatory actions violate the intent of both the
participation and opposition clauses of Title VII's antiretaliatory provisions in that
they deter cooperation in investigations in order to gather the truth as to whether
discrimination has occurred, and punishes those who truthfully oppose false
allegations in response to questioning. Although such employer actions

30

undoubtedly met the "but for" standard set forth in Crawford, using truthful
responses during an internal investigation as a basis for taking adverse actions
against a plaintiff would, at a minimum, meet §2000e-16's "motivating factor"
standard. Under Babb, a plaintiff may establish a §2000e-16 violation if the
ultimate personnel was tainted by any retaliation for a protected activity, even if
found not to be a but-for cause of the personnel action. See Gomez-Perez v. Potter,
553 U.S. 474, 479, 487 (2008) (finding retaliation provisions embodied within the
“free from any discrimination” language of 29 U.S.C. § 633a(a), which contains the
exact language of §2000e-16). Here, Petitioners responses to the hostile work
environment allegations were the object or but-for cause of her employer's
personnel action as they were cited as the cause in the very disciplinary actions
and poor performance rating themselves.
This Court held in Burlington v. White that employers are liable for
retaliation under the employment discrimination statutes for conduct that "well
might have 'dissuaded a reasonable worker from making or supporting a charge of
discrimination.’” Id at 68.
The critical issue in determining whether a plaintiff is discriminated because
of her gender is whether she is exposed to disadvantageous terms or conditions of
employment to which others are not exposed or if she is treated worse than would
have been tolerated in a person of another sex. Bostock v. Clayton Cty., Georgia,
590 U.S.

140 S. Ct. 1731 (2020). See also Oncale v. Sundowner Officeshore

31

Services, 523 U.S. 75 (1998); White v. Baxter Healthcare Corp., 533 F.3d 381 (6th Cir.
2008).
The district court acknowledged that Petitioner was treated differently than
her male counterparts during the RIF but excused it away for reasons that proved
to be false and pretextual. In determining whether an adverse action was based in
part on sex, it does not matter whether other factors played a part other than sex; it
only matters that sex contributed to the decision, If changing employees would yield
a different result, it is a statutory violation.
Discriminatory intent can also be discerned from context, including an
employer's acts and statements in sexual harassment cases. Meritor Savings Bank
v. Vinson , 477 U.S. 57, 69 (1986) A same-sex harassment plaintiff may also offer
direct or circumstantial comparative evidence about how the alleged harasser
treated members of both sexes in a mixed-sex workplace, Oncale v. Sundowner
Offershore Services, 523 U.S. at 81. Observing discrimination in a workplace
requires a contextual evaluation of not only "the words used or the physical acts
performed" but also a constellation of surrounding circumstances, expectations, and
relationships as well the proper causation standard. Id at 82.
This Court in Babb found that the ADEA federal-sector statutory provision (§
633(a)) was materially identical to Title VII's provision (§ 2000e-16) and that the
plaintiff need only show that "discrimination plays any part in the way that a
decision is made [.]" Id. at 1174 (emphasis added).

32

B.

The Eighth Circuit's decision conflicts with the decisions of other
Federal Circuits as well as the EEOC and MSPB when interpreting the
language of federal sector claims under § 2000e et. seq. generally and § 2000e16 specifically.
Although the Eighth Circuit has cited to 42 U.S.C. § 2000e-16 generally in

federal-sector discrimination and retaliation cases it has failed to analyze those
cases pursuant to its statutory language, and instead it has solely analyzed them
under the private-sector provisions—§§ 2000e-2 and 2000e-3. See Brower v.
Runyon, 178 F.3d 1002, 1005 (8th Cir. 1999); AuBuchon v. Geithner, 743 F.2d 638,
641 (8th Cir. 2014) (citing to §2000e-16(a), but applying § 2000e-3(a)); See also
Shaffer v. Potter, 499 F.3d 900, 904 (8th Cir. 2007) (citing to Griffith v. City ofDes
Moines, 387 F.3d 733, 736 (8th Cir. 2004) (Erroneously requiring but-for causation
in federal-sector discrimination claim by requiring specific link between
discriminatory animus and the ultimate decision). In Griffith at 735 (a privatesector case), the Eighth Circuit held that this Court's decision in Desert Palace
referred to jury instructions and did not extend to summary judgment in
employment discrimination cases.) However, recently, this Court disagreed and re­
emphasized that the causation standard does not change from the motion stage to
trial. Comcast v. National Association of African American-Owned Media et. al.,
589 U.S. (2020). The Eight Circuit struggled with labeling and sorting evidence in
Torgerson, where it ultimately upheld the separate frameworks and condoned the
labeling and sorting of evidence into these frameworks as opposed to viewing the
evidence in its entirety. The Eighth Circuit based its decision in this matter on
Torgerson.
33

Beyond its reluctance to address the statutory language in §2000e-16, the
Eighth Circuit also conflicts with all other federal circuits in its approach to
addressing discrimination claims under § 2000e-2 et. seq. Although all other federal
circuits may be divided as how to analyze summary judgment challenges in mixedmotive cases generally, none have taken such a strict adherence to McDonnell
Douglas as the Eighth Circuit. The Second, Third, Fifth, and Tenth Circuits have
adopted a modified McDonnell Douglas test that allow a plaintiff to present either
evidence of pretext or motivating-factor. Holcomb v. Iona Coll., 521 F.3d, 141-42 (2d
Cir. 2008); Makky v. Chertoff, 541 F.3d 205, 214 (3d Cir. 2008); Rachid v. Jack In
The Box, Inc., 376 F.3d 305, 312 (5th Cir. 2004); Fye v. Okla. Corp. Comm'n, 516
F.3d 1217, 1224-26 (10th Cir. 2008).
The First, Fourth, Seventh, Ninth and D.C. Circuit allow plaintiffs to argue
their case using either McDonnell Douglas or Desert Palace. Chadwick u. WellPoint,
Inc., 561 F.3d 38, 45 & n. 8 (1st Cir. 2009)19; Diamond v. Colonial Life & Acc. Ins.
Co., 416 F.3d 310, 318 (4th Cir. 2005); Hossack v. Floor Covering Assocs. of Joliet,
Inc., 492 F.3d 853, 860-62 (7th Cir. 2007); McGinest v. GTE Serv. Corp., 360 F.3d
1103, 1122 (9th Cir. 2004); Fogg v. Gonzales, 492 F.3d 447, 451 & n. * (D.C. 2007).
The Sixth and Eleventh Circuits no longer apply McDonnell Douglas to
mixed motive cases at summary judgment, but instead asks whether the adverse
action was motivated by discrimination. White v. Baxter Healthcare Corp., 533 F.3d

19 Although the First Circuit declined to analyze McDonald Douglas after Desert
Palace, it appears to have adopted similar approach to the Fourth, Seventh, Ninth,
and D.C. Circuits.
34

381, 396 (6th Cir. 2008); Quigg v. Thomas Cnty. Sch. Dist., 814 F.3d 1227, 1232
1241 (11th Cir. 2016).
The Eighth Circuit is the only Circuit to hold that post-Desert Palace, the
McDonnell Douglas approach must be applied in evaluating mixed-motive claims
based on circumstantial evidence. See Griffith at 736; but see id. at 739-48
(Magnuson, J., concurring specially) (disagreeing with the majority that the
"McDonnell Douglas paradigm" is appropriate for evaluating mixed-motive claims).
Congress gave the EEOC the enforcement authority over federal sector EEO
matters in 42 U.S.C. § 2000e-16(b). The EEOC has set forth guidelines in its EEOC
Enforcement Guidance on Retaliation and Related Issues, No. 915.004
(August 25, 2016) (available at https://www.eeoc.gov/laws/guidance/enforcementguidance-retaliation-and-related-issues), and addressed the issue of causation in
section 11(C). In section 11(C)(1)(b), the EEOC guidelines set forth the motivating
factor causation standard for Title VII claims in federal-sector claims, in which it
cited to an EEOC case involving the Respondent that held that the "but-for"
standard does not apply to federal-sector Title VII retaliation cases because the
federal-sector statutory provisions do not contain the same language on which this
Court based its holding in Nassar. Id.; (citing Nita H. v. Dep't of Interior, EEOC
DOC 0320110050, 2014 WL 3788011, at *10 n. 6 (July 16, 2014)). The EEOC
guidelines also state that "[t]he federal sector provisions contain a 'broad
prohibition of 'discrimination' rather than a list of specific prohibited practices,'
requiring that employment 'be made free' from any discrimination,, including

35

retaliation. Therefore, in Title VII and ADEA cases against a federal employer,
retaliation is prohibited if it was a motivating factor." Ibid, (citing Gomez-Perez at
487-88 ("holding that the broad prohibition in 29 U.S.C. § 633 a(a) that personnel
actions affecting federal employees...'shall be made free from any discrimination...
prohibits retaliation by federal agencies"); see also 42 U.S.C. § 2000e-16(a)
("providing that personnel actions affecting federal employees 'shall be made free
from any discrimination' based on...sex...”)
The Eighth Circuit erred in affirming the application of the McDonnell
Douglas framework standard while failing to take into account the motivating
factor standard. It also erred by upholding the district court's very narrow
interpretation of adverse actions, its incorrect definition of comparators, its failure
to acknowledge the internal investigation as a protected activity, its disregard for
the defective RIF procedures, and the false pretext the Respondent used to justify
its adverse actions.
Federal employees may bring claims for retaliation under Title VII even
though the federal sector provision does not explicitly reference retaliation. See.
Komis v. Sec'y of United States Dep't of Labor, 918 F.3d 289, 295 (3d Cir. 2019)
This Court has "assume [d] without deciding that it is unlawful for a federal agency
to retaliate against a civil servant for complaining of discrimination.” Green v.
Brennan, 578 U.S.

, 36 S. Ct. 1769, 1775 n. 1 (2016).

Relying on earlier precedent in Quigg v. Thomas County School District, 814
F.3d 1277, 1237 (11th Cir. 2016), the Eleventh Circuit in Babb, held that the district

36

court erred by applying the McDonnell Douglas test rather than the more lenient
motivating factor test, to plaintiffs mixed motivate Title VII gender-discrimination
claim. Babb v. Secretary, Department of Veterans Affairs, 743 F. App'x 280 (11th Cir.
2018). It found that "a mixed-motive plaintiff need only allege that discrimination
was ‘a motivating factor’ for the employer's action.” 42 U.S.C. § 2000-2; Quigg at
1235.
The Eleventh Circuit also held that "discrimination as used in §2000e-16,
includes retaliation. See Canino v. U.S. E.E.O.C., 707 F.2d 468, 472 (11th Cir. 1983).
Much like Gomez-Perez's holding that "retaliation for complaining about age
discrimination is 'discrimination based on age'", the Eleventh Circuit on remand in
Babb has followed the analysis of its predecessor Circuit, the Fifth Circuit, in
holding that "retaliation for complaining about prohibited forms of discrimination is
itself 'discrimination' within the meaning of § 2000e-16(a) See Gomez-Perez at 488;
See also Babb v. Secretary, Department of Veterans Affairs, No. 16-16492 (11th Cir.
2021) citing Porter v. Adams, 639 F.2d 273, 277-78 (5th Cir. Unit A Mar. 1981). On
remand, the Eleventh Circuit also reiterated this Court's ruling that it "did 'not
mean that age must be a but-for cause of the outcome'. Rather, '[i]f, at the time
when the decision is actually made, age plays a part, then the decision is made 'free
from' age discrimination'" Id. at 22. (emphasis added). It also recapped this Court's
reasoning in Babb that" 'age must be a but-for cause of differential treatment, not
that age must be a but-for cause of the ultimate decision.'" Id. (quoting Babb at
1174).

37

CONCLUSION
For the foregoing reasons, this Court should grant this petition and issue a
writ of certiorari to review the judgment and opinion of the Eighth Circuit. In the
alternative, the petition for writ of certiorari should be granted and the judgment
below summarily reversed.
Dated: May 6, 2021
Respectfully submitted,

Cynthia Metivier
10851 B Falling Water Lane
Woodbury, Minnesota 55129
(651) 337-1270
Pro se Petitioner

38

